APPE.MD1X tA,;
District Court Of Appeal Of The State Of Florida
Fourth District
KESNER V. JOASEUS, JR.,
Appellant,
v.
STATE OF FLORIDA,
Appellee.
No. 4D20-1497
[November 12, 2020]
Appeal of order denying rule 3.800 motions from the Circuit Court for
the Fifteenth Judicial Circuit, Palm Beach County; Caroline C. Shepherd,
Judge; L.T. Case Nos. 502008CF013148A, 502008CF017999B, and
502008CF017998B.
Kesner V. Joaseus, Jr., pro se, DeFuniak Springs.
No appearance required for appellee.
Per Curiam.

Affirmed.
Levine, C.J., Gross and Kuntz, JJ., concur.

Not fined until disposition of timely filed motion for rehearing.

APPENDIX

Received oa -Jan, (}}\? ^O'oLP

fkV Mam, CX-An*

i l>

0 “>

Far if 1 <?P 3

IN THE CIRCUIT COURT OF THE FIFTEENTH JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY FLORIDA
STATE OF FLORIDA,

CRIMINAL DIVISION “R”
CASE NO.: 2008-CF-017998-BXXX-MB
2008-CF-017999-BXXX-MB
2008-CF-013148-AXXX-MB

v.
KESNER JOASEUS,
Defendant.

ORDER CONSOLIDATING DEFENDANT’S SECOND AND SUCCESSIVE MOTION
FOR POST CONVICTION RELIEF AND SECOND AND SUCCESSIVE MOTION TO
CORRECT SENTENCE. DENYING THE MOTIONS IN PART AND ORDERING THE
STATE TO RESPOND IN PART
THIS CAUSE came before the Court on the Defendant’s Second and Successive Motion
for Post-Conviction Relief filed on March 27, 2019 and Defendant’s Second and Successive
Motion to Correct Sentence filed on June 18, 2019. The Court has carefully examined and
considered the Motions, the record and all pertinent case law.

STATEMENT OF THE CASE AND FACTS
On December 16, 2008, Defendant and two co-defendants engaged in a series of armed
robberies. At the time of the robberies, Defendant was eighteen years old and was serving a
youthful offender probationary sentence for one count of possession of marijuana with intent to
sell in case 2008-CF-13148-AXXX-MB (“13148”). (Ex “A”). Based on the foregoing, Defendant
was charged by indictment with one Count of Robbery with a Firearm (Count 1) and one count of
Fleeing or Attempting to Elude a Law Enforcement officer (Count 2) in case 2008-CF-017998BXXX-MB (“17998”) and with one count of Robbery With a Firearm While Masked (Count 1)
and Burglary While Armed With a Firearm While Masked (Count 2) in Case Number 2008-CF017999-BXXX-MB (“17999”). (Ex “B”). An affidavit of violation of probation was also filed in

\

case 13148. (Ex“C”).
Due to the related nature of the facts, Defendants proceeded to a consolidated trial in cases
17998 and 17999. The jury found Defendant guilty as charged in both cases and the Court
sentenced Defendant in Case Number 17998 to forty (40) years on Count 1 and five years on Count
2, with 759 days of credit for time served. (Ex “D”). The Court sentenced Defendant in Case
Number 17999 to forty (40) years on Counts 1 and 2, to be served concurrently with the sentences
in case 17998, with 759 days of credit for time served. (Ex “E”). The trial court also heard the
VOP charge in case 13148, and after finding Defendant violated his probation, sentenced him to
131 months with 759 days of credit to run concurrently with the sentences in Case Numbers
017998 and 017999. (Ex “F”).
On February 7, 2011, Defendant filed a Notice of Appeal of his convictions and sentences
in Case Numbers 017998 and 017999. The Fourth District Court of Appeal affirmed Defendant’s
convictions and sentences, issuing the mandate on January 7, 2013. Joaseus v. State, 103 So. 3d
171 (Fla. 4th DCA 2012).
On March 27, 2019, Defendant filed a Second and Successive Motion for Post-Conviction
Relief purportedly pursuant to Florida Rule of Criminal Procedure 3.850.

In that Motion,

Defendant argued that his sentences in cases 017998 and 017999 are unconstitutional because he
was eighteen at the time he committed the offenses and the Court did not sentence him under the
juvenile sentencing laws. On June 18,2019, Defendant then filed a Second and Successive Motion
to Correct Sentence where he asserts the same argument raised in his March 27, 2019 Motion.
Defendant also suggests that his sentences in cases 017998 and 017999 are illegal as compared to
his co-defendants’ sentences. Additionally, Defendant asserted that his VOP sentence in case
13148 is illegal because it exceeds the statutory maximum for underlying offense. Based on the

Page 2 of 6

allegations contained in the March 27,2019 Motion, this Court reclassifies the Motion as a Motion
to Correct Illegal Sentence under Rule 3.800(a) and considers it in conjunction with the same
argument raised in Defendant’s June 18, 2019 Motion.
ANALYSIS AND LEGAL RULINGS
a) Whether Defendant Sentences in Cases 17998 and 17999 are Illegal Because
Defendant Was Eighteen at the Time He Committed the Underlying Offenses?
In both his March 27 and June 18,2019 Motions, Defendant argues that his forty year sentences
in cases 17998 and 17999 violate the Cruel and Unusual Punishment Clauses of the United States
Constitution. Specifically, Defendant contests that he is entitled to the individualized resentencing
available to youth under the age of eighteen at the time of the commission of the offense. Citing
heavily to a federal trial court ruling from the United States District Court for the District of
Connecticut, Defendant asserts that an eighteen year old also has a “youthful” brain and, therefore,
should be afforded the same sentencing considerations as a person who is not yet eighteen. See
Cruz v. United States, 2018 WL 1541898, at *25 (D. Conn. Mar. 29, 2018). Defendant’s position
is refuted by Florida law, which is binding on this Court.
In 2010, the United States Supreme Court issued its decision in Graham v. Florida, 560
U.S. 48, 75 (2010), wherein it held that in order not to run afoul of the Eighth Amendment, any
sentence imposed on a juvenile offender for a nonhomicide offense must provide a “meaningful
opportunity to obtain release based on demonstrated maturity and rehabilitation.” Two years later,
the United States Supreme Court decided Miller v. Alabama, 567 U.S. 460, 480 (2012), wherein
it held that before imposing a life sentence on a juvenile for a homicide offense, the court must
“take into account how children are different, and how those differences counsel against
irrevocably sentencing them to a lifetime in prison.”

Page 3 of 6

In response to Graham and Miller, the Florida Legislature enacted chapter 2014-220, Laws
of Florida, which was codified in sections 775.082, 921.1401, and 921.1402, Florida Statutes.
Section 921.1402 provides that juvenile offenders who commit offenses after July 1,2014 receive
a review hearing and opportunity for early release after serving fifteen, twenty, or twenty-five
years depending on the crime committed and the length of the prison sentence. The Florida
Supreme Court has held that the statutes created by chapter 2014-220, Laws of Florida, apply
retroactively to sentences imposed before July 1, 2014 if the defendant’s sentence violates Miller
or Graham. See State v. Purdy, 252 So. 3d 723, 725 (Fla. 2018)(citations omitted).
However, Florida law establishes that neither Graham, Miller, nor Florida’s juvenile
sentencing statutes apply to persons who are eighteen years old or older when they commit an
underlying offense. Davis v. State, 223 So. 3d 1106, 1108-09 (Fla. 5th DCA 2017) (holding that
a person who is eighteen years old when they commit an offense is not entitled to be sentenced
under Florida’s juvenile sentencing statues). See also Guzman v. State, 183 So. 3d 1025 (Fla.
2016) (Pariente, J., concurring) (noting that the line for juvenile sentencing considerations “must
be drawn somewhere” and that “[sjociety has consistently drawn it at eighteen”). Accordingly, as
Defendant was eighteen at the time he committed the underlying offenses in cases 17998 and
17999, his arguments regarding juvenile offender sentencing considerations lack merit and his
Motions are denied on these grounds
b) Whether Defendant’s Sentences in Cases 17998 and 17999 Are Illegal as Compared
to his Co-Defendants’ Sentences?
Although not articulated as its own argument, in his Motions, Defendant also suggests that his
sentences in cases 17998 and 17999 are illegal because they are disproportionate to the sentences
his co-defendants received. This argument is not cognizable in a rule 3.800(a) motion. Shivers v.
State, 96 So. 3d 1039, 1040 (Fla. 4th DCA 2012) (“Whether a defendant’s sentence is
Page 4 of 6

disproportionate as compared to his co-defendant’s sentence is not cognizable in a rule 3.800(a)
motion.”). Therefore, to the extent Defendant is raising such an argument, his Motions are denied
on these grounds.
c) Whether Defendant’s 131 Month Sentence in Case 13148 is illegal?
Lastly, in his June 18, 2019 Motion, Defendant asserts that his 131 month sentence in case
13148 is illegal because the underlying offense, possession of marijuana with the intent to sell,
was a third degree felony which was only punishable by up to 60 months. (June 18, 2019 Motion
at page 17). The Court orders the State to respond to this issue only.
Based on the foregoing, it is hereby
ORDERED that the State is directed to respond to Defendant’s argument regarding his
sentence in case 013148 as outlined on page 17 of Defendant’s June .18, 2019 Motion within sixty
(60) days from the date of this Order. It is further

(continued onto next page)

Page 5 of 6

ORDERED that Defendant’s March 27, 2019 Motion is reclassified as a Motion to Correct
Illegal Sentence under Florida Rule of Criminal Procedure 3.800(a) and is consolidated with
Defendant’s June 18,2019 Motion. Defendant’s arguments in those Motions regarding the legality
of his sentences in Case 17998 and 17999 are DENIED. This is a non-final, non-appealable order.
Defendant has no right to appeal until a final order is entered.
NOTICE TO DEFENDANT
This Order is entered pursuant to Florida Rule of Criminal Procedure 3.850(f)(6). Florida
Rule of Criminal Procedure 3.850(e), which became effective on July 1, 2013, states in
pertinent part, “Leave of court is required for the filing of an amendment after the entry of
an order pursuant to subdivision ... (f)(6).” Accordingly, any supplemental or amended
motion for postconviction relief filed by Defendant after the entry of this Order is
procedurallv barred and shall be summarily stricken as unauthorized or shall not be
considered unless Defendant has first requested and been granted leave (i.e.,
permission) of this Court to file such supplemental or amended motion. See Saltzman
v. State, 154 So. 3d 438 (Fla. 4th DCA 2014); Wrencher v. State, 238 So. 3d 814 (Fla. 4th
DCA2018).
DONE AND SIGJNED in Chambers, at West Palm Beach, Palm Bpach County, Florida,
this

day of

q^x. 202p
CAROLINE SHEP
CIRCUIT JUDGE

COPIES FURNISHED:
Kesner Joaseus, DC#W36557, Hamilton Annex, 10650 SW 46th Street, Jasper, FL 32052
Office of State Attorney, 401 North Dixie Hwy., West Palm Beach, FL 33401 (epostconviction@sa 15 .org)

Page 6 of 6

